Evaluation Report 99-007                                                             Page 1 of 1




                                         Evaluation Report No. 99-005

                                                 July 2, 1999

    l   Report (121Kb PDF file - PDF help or hard copy)
    l   Appendix 1 (5Kb PDF file - PDF help or hard copy )
    l   Appendix 2 (5Kb PDF file - PDF help or hard copy )
    l   Appendix 3 (10Kb PDF file - PDF help or hard copy)
    l   Appendix 4 (29Kb PDF file - PDF help or hard copy)
    l   Appendix 5,6 & 7 (22Kb PDF file - PDF help or hard copy)
    l   Appendix 8 & 9 (10Kb PDF file - PDF help or hard copy)

  Return to Evaluation Reports List




                           Home Contact Us Search Help SiteMap Forms
                          Freedom of Information Act Website Policies FirstGov.gov




http://www.fdic.gov/oig/e-rep99/99-005.html                                           12/8/2003
